IN THE
SUPREME COURT OF THE UNITED STATES
NEIL JOSEPH GILLESPIE, PETITIONER
vs.

STATE OF FLORIDA ET AL
PROOF OF SERVICE
I, Neil Joseph Gillespie, do swear or declare that on this date, December 28. 2020.
as required by Supreme Court Rule 29 I have served the enclosed PETITION FOR WRIT
OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days, and by E-service. The names and addresses of those served are:
STATE OF FLORIDA
ASHLEY MOODY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
WESLEY HEIDT
Assistant Attorney General
444 Seabreeze Boulevard, Suite 500
Daytona Beach, Florida 32118
(386) 238-4990/ (386) 238-4997 (fax)
Wesley.Heidt@myfloridalegal. com
crimappdab@myfloridalegal.com

BRENDA H. SMITH, ESQUIRE
871 S Central Ave. Ste A
Umatilla, FL 32784-9290
Office: 352-669-4667
Cell: 352-636-2573
smith.brenda.atty@gmail.com
hartwright2002@yahoo.com
TONIA WERNER, MD
Meridian Behavioral Healthcare
4300 SW 13th Street
Gainesville, FL 32608
(352) 374-5600; (800) 330-5615
tonia_wemer@mbhci.org

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 28. 2020.
Nei osepn Gil^pie, Signature

